Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   MEDICARE ADVANTAGE 

  MARKETING MATERIALS FOR 

    CALENDAR YEAR 2005 





                    Daniel R. Levinson

                     Inspector General 


                      August 2006

                     OEI-01-05-00130

                   Office of Inspector General
                                     http://oig.hhs.gov


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program evaluations
(called inspections) that focus on issues of concern to HHS, Congress, and the public. The
findings and recommendations contained in the inspections generate rapid, accurate, and up-to
date information on the efficiency, vulnerability, and effectiveness of departmental programs.
OEI also oversees State Medicaid Fraud Control Units, which investigate and prosecute fraud
and patient abuse in the Medicaid program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support in
OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
E X E C U T I V E                       S U           M M A R Y
Δ    E X E C U T I V E                                    S U M M A R Y                                    



                   OBJECTIVE
                   To determine whether Medicare Advantage marketing materials for
                   2005 met the Centers for Medicare & Medicaid Services’ (CMS)
                   marketing requirements.


                   BACKGROUND
                   The Medicare Prescription Drug, Improvement, and Modernization Act
                   of 2003 (P.L. 108-173), referred to as the MMA, expands the availability
                   of managed care options through a revised managed care program,
                   Medicare Advantage (MA). MA organizations recruit beneficiaries
                   using a variety of marketing materials. These materials can be grouped
                   into two broad categories: advertising materials and enrollment
                   materials (i.e., sales brochures, enrollment forms, summaries of
                   benefits, and evidence of coverage documents). MA organizations
                   generate sections of their plans’ summaries of benefits using CMS’s
                   Health Plan Management System (HPMS), which CMS also uses to
                   track marketing materials.

                   CMS’s Managed Care Manual includes standards that MA marketing
                   materials must meet to obtain CMS’s approval. These requirements,
                   last updated in August 2004, address such aspects of marketing
                   materials as premium costs, required definitions, benefit descriptions,
                   prescription drug benefit descriptions, and required contact information.

                   We reviewed marketing materials for January through December 2005
                   from a random sample of 36 MA plans. We did not review marketing
                   materials for Medicare Part D plans because Part D did not begin until
                   January 1, 2006. While our sample was randomly drawn, it was not
                   large enough to produce reliable estimates of the population of plans.
                   Using standard protocols that we developed based on CMS’s Managed
                   Care Manual, we reviewed advertisements, sales brochures, enrollment
                   forms, summaries of benefits, and evidence of coverage documents from
                   the 36 MA plans. We also interviewed staff at four CMS regional offices
                   responsible for reviewing a large number of marketing materials from
                   MA plans.




 OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   i
E X E C U T I V E                       S U           M M A R Y 




                   FINDINGS
                   Some marketing materials in our sample lacked CMS-required
                   information concerning limitations to prescription drug benefits.
                   • 	Fifty-five percent of summaries of benefits did not state that
                      formulary contents can change.

                   • 	Eighteen percent of evidence of coverage documents did not specify
                      that beneficiaries can use the appeals process to have drugs added
                      to the plan’s formulary or to appeal a decision not to cover a
                      particular drug.

                   • 	Ten percent of advertisements did not identify coverage limitations
                      when referring to prescription drug benefits.
                   Some marketing materials in our sample lacked elements required
                   by CMS to ensure that beneficiaries can access plan information.
                   • 	Fifty-two percent of advertisements did not provide operating hours
                      for their customer service numbers.

                   • 	Sixty-seven percent of summaries of benefits and 8 percent of
                      evidence of coverage documents did not indicate that
                      1-800-MEDICARE operates 24 hours a day, 7 days a week.
                      Moreover, this information was missing from the sections of the
                      summaries of benefits that MA plans generate from HPMS.

                   • 	Ten percent of advertisements failed to present text telephone
                      numbers for individuals with hearing impairments in the same font
                      size and style as other phone numbers.

                   • 	Twenty-eight percent of advertisements inviting beneficiaries to
                      sales presentations failed to indicate that special arrangements
                      could be made at these events for persons with special needs.

                   • 	Thirty-nine percent of evidence of coverage documents did not
                      indicate that individuals with special needs could obtain the
                      document in alternative formats.
                   Some marketing materials in our sample did not clearly convey
                   information concerning other aspects of MA plan coverage.
                   • 	Twenty-eight percent of summaries of benefits did not define the
                      term “benefit period” when using the term to describe their plan.




 OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   ii
E X E C U T I V E                       S U           M M A R Y


                   • 	Thirty-six percent of summaries of benefits did not state that the
                      plan’s contract with CMS is renewed annually and that nonrenewal
                      could result in loss of coverage.

                   • 	Nineteen percent of enrollment forms and 14 percent of evidence of
                      coverage documents contained technical language. Eleven percent
                      of both enrollment forms and evidence of coverage documents
                      contained unclear language.


                   CONCLUSION
                   Our review found that some Medicare Advantage marketing materials
                   lacked CMS-required information essential for beneficiaries to make
                   informed plan choices. Missing information concerned prescription drug
                   benefit limitations and details that convey how beneficiaries can access
                   plan information. Furthermore, some marketing materials used
                   unclear and technical language.

                   CMS’s continued diligence in reviewing marketing materials is
                   essential. CMS will also need to ensure consistency between its HPMS
                   system and its requirements for marketing materials. We will continue
                   to monitor marketing materials for Medicare Advantage plans and for
                   Medicare Part D plans, as well as CMS’s oversight of the review process
                   for these materials.


                   AGENCY COMMENTS
                   CMS concurred with our findings, stating that the report will help it
                   improve its marketing review process. CMS also highlighted
                   enhancements it made to the review process for Medicare Advantage
                   and Medicare Part D plan marketing materials to improve their
                   consistency. These include a consolidated review of Medicare
                   Advantage and Medicare Part D plan marketing materials by CMS
                   regional office staff, a contractor review of the consistency of marketing
                   materials, and new features in its HPMS system to assist in monitoring
                   the review process.




 OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   iii
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i





         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 5

                   Some materials lack prescription drug benefit limitations . . . . . . . 5 


                   Some materials lack elements needed to access plan information . 6 


                   Some materials do not clearly convey coverage information. . . . . . 8 




         C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                   Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 




         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 

Δ   I N T R O D U C T I O N                                                    



                  OBJECTIVE
                  To determine whether Medicare Advantage marketing materials for
                  2005 met the Centers for Medicare & Medicaid Services’ (CMS)
                  marketing requirements.


                  BACKGROUND
                  Medicare Managed Care
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 (P.L. 108-173), referred to as the MMA, revised the managed
                  care program and expanded the availability of managed care options for
                  Medicare beneficiaries. The MMA renamed the revised managed care
                  program Medicare Advantage (MA). This program took effect
                  March 22, 2005.1
                  The MA encompasses multiple forms of Medicare managed care. As of
                  January 2005, approximately 5.4 million Medicare beneficiaries were
                  enrolled in managed care plans. Roughly 4.7 million, or 85 percent, of
                  these beneficiaries received services through 143 health maintenance
                  organizations, hereafter referred to as MA organizations.2 Each MA
                  organization may offer multiple plans.

                  We evaluated materials that MA organizations distributed to market
                  their plans for calendar year 2005. These plans operated prior to
                  implementation of the Medicare prescription drug benefit, hereafter
                  referred to as Part D. We did not review marketing materials for the
                  Part D plans, as Part D did not begin until January 1, 2006. Thus, any
                  references to MA plan drug benefits exclude Part D drug benefits.
                  Medicare Advantage Marketing
                  MA organizations market their plans to differentiate them from both
                  the original Medicare fee-for-service program and other MA plans. MA
                  organizations employ a variety of marketing materials to inform and
                  recruit beneficiaries. These materials can be grouped into two broad
                  categories:

                         • 	 Advertising materials, including newspapers, direct mail,
                             television advertisements, and radio scripts.

                         • 	 Enrollment materials, including the following:




OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   1
I N T R O D        U C T             I O N


                                           o 	 Sales brochures, which are product descriptions used in
                                               the sales/enrollment process that provide more details
                                               than advertisements;

                                           o 	 Enrollment forms/applications, which beneficiaries
                                               complete prior to enrolling in an MA plan;

                                           o 	 Evidence of coverage documents (also known as the
                                               member contract or subscriber agreement), which detail
                                               the benefits and restrictions of the MA plan; and

                                           o 	 Summary of benefits documents, which provide a
                                               synopsis of the MA plan’s coverage.

                    To ensure consistency across summaries of benefits, CMS directs MA
                    plans to generate sections of these documents directly from information
                    the plans enter into the Health Plan Management System (HPMS).3
                    CMS maintains the HPMS to track marketing materials that plans
                    submit to CMS for review. Plans also use the HPMS to submit
                    marketing materials electronically to CMS for review.
                    Medicare Managed Care Marketing Oversight
                    Pursuant to section 1876 (c)(3)(C) of the Social Security Act and Federal
                    regulations, CMS, on behalf of the Secretary of the Department of
                    Health and Human Services, reviews the marketing materials that MA
                    organizations use.4 Federal regulations set forth required elements of
                    marketing materials. Pursuant to the regulations, MA organizations
                    must provide beneficiaries with adequate written descriptions of rules,
                    plan benefits, appeals and grievance processes, and the information
                    necessary to make informed decisions about enrollment.5 Federal
                    regulations also prohibit some marketing practices. For example, MA
                    organizations must not discriminate against recruiting beneficiaries
                    from low-income areas, mislead or confuse beneficiaries, misrepresent
                    the health plan or CMS, or provide monetary rebates for enrollment.6
                    CMS’s Medicare Managed Care Manual (hereafter, the manual)
                    provides operational guidelines for meeting Federal marketing
                    requirements and provides instructions regarding the review process.
                    In addition, the manual instructs plans to make their marketing
                    materials reader-friendly.7 In the manual, CMS also provides MA
                    organizations with models of various marketing materials they can
                    adapt for their own use. CMS drew heavily upon the manual when it
                    created guidelines for marketing materials for the Medicare Part D
                    benefit that began in January 2006.8


 OEI-01-05-00130    M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   2
I N T R O D        U C T             I O N


                    The manual specifies language that marketing materials must use,
                    language plans can use, and language they cannot use. This guidance
                    addresses such aspects of marketing materials as:

                           •       descriptions of premium costs,

                           •       required plan contact information,

                           •       descriptions of prescription drug benefits, and

                           •       definitions of coverage terms (e.g., benefit period).

                    For example, marketing materials that refer to prescription drug
                    benefits must reference any limitations to these benefits to avoid
                    misleading beneficiaries about the true level of coverage.9
                    Prior Work by the Office of Inspector General
                    Two Office of Inspector General (OIG) reviews of managed care
                    marketing materials (OEI-03-98-00270 and OEI-03-98-00271) conducted
                    in 2000 found that only 13 percent of a purposive sample of
                    CMS-reviewed materials met all of CMS’s marketing requirements.10
                    Furthermore, OIG found that 46 percent of the materials were
                    confusing or contained jargon. OIG recommended that CMS
                    standardize and mandate use of member materials, update its
                    marketing guidelines, develop standard review instruments, and track
                    marketing material reviews across regions.

                    The reports’ recommendations spurred changes in CMS’s handling of
                    Medicare managed care marketing materials. Specifically, CMS
                    established standard and model forms for member materials, formalized
                    marketing guidelines into the manual, and developed the HPMS to
                    track marketing materials.


                    METHODOLOGY
                    We reviewed a total of 415 marketing materials from a multistage
                    random sample of 36 MA plans. While our sample was randomly
                    drawn, it was not large enough to produce reliable estimates of the
                    population of plans. The MA plans we examined met two criteria.
                    First, these MA organizations were in operation prior to
                    January 1, 2004. Second, these MA organizations enrolled new
                    members in December 2004. These criteria ensured that we selected
                    plans that had at least 1 year of experience and that participated in
                    Medicare through January 2005.



 OEI-01-05-00130    M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   3
I N T R O D        U C T             I O N


                    These criteria yielded a population of 130 MA organizations from CMS’s
                    HPMS. Some MA organizations offer more than one plan; however, we
                    selected only one plan from each organization.11 We sampled plans
                    based on the number of plans offered by the MA organizations and the
                    number of members in these plans. Appendix A contains a detailed
                    description of our methodology.

                    After selecting our sample, we contacted the 36 MA plans and requested
                    copies of any of the following materials the selected plan issued through
                    March 1, 2005: advertising materials, sales brochures, enrollment
                    forms/applications, summaries of benefits, and evidence of coverage
                    documents. We received materials from all 36 plans for a total of
                    415 pieces of marketing materials. For each plan, we received one
                    enrollment form, one summary of benefits, and one evidence of coverage
                    document. We also received a total of 281 advertisements and 26 sales
                    brochures from the 36 plans.

                    For our review, we created and used five review guides—one for each
                    type of material. We based these review guides on requirements
                    specified in the manual. We used five separate review guides because
                    CMS marketing requirements vary depending on the type of marketing
                    material. In addition to determining whether the marketing materials
                    met CMS’s requirements, we assessed whether the material was clear
                    (i.e., obvious and not misleading) and free of technical language.

                    Additionally, we interviewed staff from four CMS regional offices that
                    are responsible for overseeing large numbers of MA plans: Atlanta,
                    Chicago, San Francisco, and Seattle. Our interviews focused on these
                    offices’ reviews of marketing materials and barriers to the review
                    process.

                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-01-05-00130    M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   4
 F   I N D I N G             S
Δ        F I N D I N G S 



Some marketing materials in our sample lacked
        CMS-required information concerning                        Prior to January 1, 2006, MA
                                                                   plans offering prescription drug
      limitations to prescription drug benefits
                                                                   coverage provided a benefit
                            unavailable through traditional fee-for-service Medicare. To ensure
                            that beneficiaries understand the true benefits and limitations of a
                            plan’s prescription drug benefit, CMS requires that plans include
                            several types of information in their marketing materials when they
                            refer to prescription drug coverage.12
                            Some marketing materials for MA plans offering drug coverage omitted
                            required information concerning prescription drug benefit formularies
                            (see Table 1). Specifically, in our sample, 55 percent of summaries of
                            benefits for these plans did not state that the formulary contents are
                            subject to change without advance notice. Because the formulary
                            represents the list of drugs a plan covers, beneficiaries should
                            understand these restrictions on their drug coverage. For this reason,
                            CMS requires plans to inform beneficiaries that the plan uses a
                            formulary, that formulary contents can change at any time, and that
                            beneficiaries can appeal if they have complaints about the formulary.



                       Table 1. Missing Information Concerning Prescription Drug Formularies

                                                                                                                            Materials Not Meeting
                   CMS Requirement
                                                                                                                              This Requirement*
                   Summaries of benefits must state that formulary contents are subject to                                                   55%
                   change without advance notice.                                                                                   (12 out of 22)
                   Evidence of coverage documents must specify that beneficiaries can use the
                                                                                                                                              18%
                   appeals process to get drugs added to the formulary or to appeal a decision
                                                                                                                                      (4 out of 22)
                   not to cover a particular drug.
                   *Denominators equal the number of materials for plans that use a formulary for prescription drug benefits.

                 Source: Office of Inspector General analysis of MA plan marketing materials, 2005.


                            Additionally, to ensure that beneficiaries understand the full costs and
                            restrictions of a prescription drug benefit, CMS requires that
                            advertising materials identify any drug coverage limitations and the
                            amount of any copayments, as well as inform beneficiaries if the benefit
                            is restricted to a formulary.13 However, 10 percent of advertisements in
                            our sample omitted required information concerning coverage
                            limitations on prescription drug benefits (see Table 2).




     OEI-01-05-00130        M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                       5
F   I N D I N G           S       





                         Table 2. Missing References to Coverage Limitations
                                                                                                                                Materials Not Meeting
                     CMS Requirement
                                                                                                                                  This Requirement*
                     Advertisements must identify any coverage limitations when referring to                                                      10%
                     prescription drug benefits.                                                                                       (18 out of 179)
                     Sales brochures for plans with prescription drug benefits must identify the                                                  82%
                     amount of any copayments for prescription drugs.                                                                     (9 out of 11)

                     Sales brochures for plans with prescription drug benefits must inform                                                        70%
                     beneficiaries if the prescription drug benefit is limited to a formulary.                                            (7 out of 10)
                         * Denominators equal the total number of marketing materials that require the respective information.
                   Source: Office of Inspector General analysis of MA plan marketing materials, 2005.




                                Finally, many sales brochures we reviewed also omitted required
                                information about prescription drug benefit limitations. It is important
                                that sales brochures include this information so that beneficiaries
                                understand the amount of drug coverage they receive (see Table 2). One
                                sales brochure noted only that “copayments may apply,” without
                                explaining how beneficiaries incur these costs or providing copayment
                                amounts. Moreover, 7 out of 10 sales brochures did not inform
                                beneficiaries that the plan’s prescription drug benefit was limited to a
                                formulary.

      Some marketing materials in our sample lacked
           elements required by CMS to ensure that
          beneficiaries can access plan information

                                Some marketing materials omitted operating hours and contact information
                                CMS requires that each plan’s marketing materials include complete
                                contact information, including operating hours for phone numbers.14
                                Listing this contact information ensures that beneficiaries know how to
                                obtain any additional information they need to make informed plan
                                selections. Yet, 52 percent of advertisements did not provide operating
                                hours for their customer service numbers (see Table 3).

                                Additionally, 67 percent of summaries of benefits and 8 percent of
                                evidence of coverage documents did not include the operating hours for
                                1-800-MEDICARE (see Table 3). Whenever enrollment materials list
                                1-800-MEDICARE, the manual directs materials to state that this
                                phone number operates 24 hours a day, 7 days a week, because this
                                represents an additional resource for beneficiary information.15 In
                                contrast, many MA plans operate customer service phone numbers only

       OEI-01-05-00130          M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                        6
F   I N D I N G                S


                              on weekdays during business hours. Because 1-800-MEDICARE can
                              provide beneficiaries with additional information on MA plans, CMS
                              directs plans to include language identifying 1-800-MEDICARE and its
                              operating hours in the template MA plans use to develop summaries of
                              benefits. Because plans create sections of their summaries of benefits
                              directly from CMS’s HPMS system, it is unclear why HPMS does not
                              automatically include 1-800-MEDICARE’s operating hours in these
                              sections.16


                        Table 3. Missing Contact Information in MA Marketing Materials
                                                                                                                              Materials Not Meeting
                        CMS Requirement
                                                                                                                                 This Requirement
                        Advertisements that provide customer service phone numbers must list                                                    52%
                        operating hours for these services.                                                                        (146 out of 279*)
                        Summaries of benefits must state that 1-800-MEDICARE operates 24                                                       67%
                        hours a day, 7 days a week if they provide this phone number.                                                 (24 out of 36)
                        Evidence of coverage documents must state that 1-800-MEDICARE                                                             8%
                        operates 24 hours a day, 7 days a week if they provide this phone number.                                       (3 out of 36)
                        *Denominator equals the number of advertisements that provide customer service phone numbers.
                      Source: Office of Inspector General analysis of MA plan marketing materials, 2005.




                              Some marketing materials lacked information for beneficiaries with special
                              needs
                              CMS requires marketing materials to include language to ensure that
                              beneficiaries with special needs have full access to plan information (see
                              Table 4).17 CMS also requires MA plans to present the text telephone
                              number for individuals with hearing impairments, known as a TTY
                              phone number, in the same font size and style as other customer service
                              numbers.18 Ten percent of advertisements did not present TTY phone
                              numbers in the same font size and style as other phone numbers. Eight
                              percent of advertisements failed to include this number at all.

                              CMS requires advertisements that invite beneficiaries to attend sales
                              presentations to provide contact information for accommodating persons
                              with special needs.19 Sales presentations offer beneficiaries more
                              detailed plan information than advertisements provide. Twenty-eight
                              percent of these advertisements failed to include information about
                              special accommodations (see Table 4). For example, one advertisement
                              simply invited “qualified Medicare beneficiaries” to attend a sales
                              presentation—language that did not indicate how beneficiaries with


    OEI-01-05-00130           M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                       7
 F   I N D I N G              S


                             special needs can access these opportunities for learning about plans
                             and interacting with sales representatives.


                       Table 4. Omitted Contact Information for Beneficiaries With Special Needs
                                                                                                                             Materials Not Meeting
                       CMS Requirement
                                                                                                                                This Requirement
                       Advertisements must provide TTY phone numbers whenever other                                                             8%
                       customer service numbers are presented.                                                                     (23 out of 275*)
                       Advertisements must present TTY phone numbers in the same font size                                                     10%
                       and style as other phone numbers.                                                                           (25 out of 252*)
                       Advertisements that invite beneficiaries to sales presentations must                                                    28%
                       indicate how to make arrangements for individuals with special needs.                                       (34 out of 120*)
                       Evidence of coverage documents must indicate that information in the                                                   39%
                       document is available in other formats.                                                                       (14 out of 36)
                        * Denominators equal the total number of marketing materials that require the respective information.

                   Source: Office of Inspector General analysis of MA plan marketing materials, 2005.




                             Thirty-nine percent of evidence of coverage documents did not indicate
                             that individuals could obtain the document in other formats (see
                             Table 4). Moreover, simply including a statement about the availability
                             of other formats does not ensure that beneficiaries will understand what
                             options exist. For example, three of these documents noted only that
                             the document was “available in other formats.” However, 19 evidence of
                             coverage documents (53 percent) indicated which other formats were
                             available—for example, large print, audio tape, and non-English
                             language. Statements indicating exactly which formats are available
                             are likely to be more useful to beneficiaries than statements that refer
                             to other formats but do not identify them.


Some marketing materials in our sample did not
  clearly convey information concerning other
                  aspects of MA plan coverage

                             When describing plan coverage, 28 percent of summaries of benefits did not
                             define “benefit period” as CMS requires
                             CMS requires summaries of benefits to define the term “benefit period”
                             in a footnote when using it to describe the plan (see Table 5).20 A
                             benefit period defines a specific period of health care and a beneficiary’s
                             coverage during that period.21 To fully understand the details of a
                             plan’s coverage, beneficiaries must understand such coverage terms.


     OEI-01-05-00130         M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                      8
F   I N D I N G              S


                            CMS’s HPMS system generates a footnote for the summary of benefits
                            that defines benefit period when describing original Medicare benefits.
                            The manual specifies that plans must add this footnote when using the
                            term to describe what the MA plan provides.
                            Thirty-six percent of summaries of benefits did not communicate the risk of
                            nonrenewal as required by CMS
                            CMS reviews MA organizations annually and may choose not to renew
                            an MA organization’s contract for the following year. CMS requires MA
                            organizations to include a statement in their summary of benefits
                            informing beneficiaries of this annual review and renewal process to
                            make beneficiaries aware that their plan may not be available in future
                            years.22 Of the summaries of benefits we reviewed, 36 percent did not
                            state that CMS renews MA organizations’ contracts annually and that
                            nonrenewal could result in the termination of the beneficiaries’
                            enrollment in the plan (see Table 5). While CMS declined to renew only
                            3 plan contracts in January 2005, the number of plans participating in
                            Medicare has fluctuated considerably, from a high of 346 plans in 1998
                            to a low of 151 plans in 2003.23


                      Table 5. Omitted Information About Plan Coverage
                                                                                                                            Materials Not Meeting
                      CMS Requirement for Summaries of Benefits
                                                                                                                               This Requirement
                      Include a footnote definition of the term “benefit period” when using this                                               28%
                      term to describe the health plan.                                                                               (9 out of 32*)
                      State that the plan’s contract is renewed annually and nonrenewal could                                                  36%
                      result in loss of coverage.                                                                                    (13 out of 36)
                      *Denominator equals the number of summaries of benefits that use this term.
                  Source: Office of Inspector General analysis of MA Plan Marketing Materials, 2005.




                            Enrollment forms and evidence of coverage documents were not
                            reader-friendly
                            The manual encourages MA organizations to develop reader-friendly
                            marketing materials so that beneficiaries are able to fully understand
                            plans’ benefits and conditions.24 For this study, we defined
                            reader-friendly materials as those that use clear language and avoid
                            technical language (see Text Box 1). Eleven percent of enrollment forms
                            and evidence of coverage documents contained unclear language.
                            Additionally, 19 percent of enrollment forms and 14 percent of evidence
                            of coverage documents included technical language. We found unclear



    OEI-01-05-00130         M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                         9
F   I N D I N G             S




                           and technical language most often in enrollment forms and evidence of
                           coverage documents (see Table 6 on page 11).

                        Text Box 1. Examples of Unclear and Technical Language

                        Unclear language
                        “Services rendered without prior authorization of my Plan contracting
                        primary care physician (PCP), except for emergency services anywhere
                        in the world or urgently needed services outside the Plan service area (or
                        under unusual and extraordinary circumstances, provided when I am in
                        the service area, but my contracting medical group is temporarily
                        unavailable or inaccessible), will not be reimbursed by Plan or Medicare.”
                        (Evidence of coverage)

                        “I agree and understand that any and all disputes, including claims
                        relating to the delivery of services under the plan and claims of medical
                        malpractice (that is as to whether any medical services rendered under
                        the health plan were unnecessary or unauthorized or were improperly,
                        negligently or incompetently rendered), except for claims subject to
                        ERISA, between myself and my dependents enrolled in the plan
                        (including any heirs or assigns) and HMO, or any of its parents,
                        subsidiaries or affiliates shall be determined by submission to binding
                        arbitration. Any such dispute will not be resolved by a lawsuit or resort to
                        court process, except as the Federal Arbitration Act provides for judicial
                        review of arbitration proceedings.” (Enrollment Form)

                        Technical language
                        “Termination of Coverage will not terminate coverage of Medicare Part A
                        inpatient Covered Health Services under the Plan if, on the date of
                        termination, you are Confined as an inpatient in a Hospital, a
                        rehabilitation Hospital, a distinct part of a Hospital used as an inpatient
                        rehabilitation unit, or a long-term care facility or Hospital as covered
                        under Section 6.B.2 of this EOC, and your place of Confinement is paid
                        by CMS on a prospective payment system basis (per stay basis.)”
                        (Evidence of coverage)

                      Source: Office of Inspector General analysis of MA Plan Marketing Materials, 2005.




    OEI-01-05-00130        M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   10
F   I N D I N G               S            





                        Table 6. Unclear and Technical Language in Marketing Materials

                        Type of Material                                                          Unclear Language           Technical Language

                                                                                                                   11%                      19%
                        Enrollment Form
                                                                                                           (4 out of 36)            (7 out of 36)
                                                                                                                    11%                      14%
                        Evidence of Coverage
                                                                                                           (4 out of 36)            (5 out of 36)
                                                                                                                     3%                       0%
                        Summary of Benefits
                                                                                                           (1 out of 36)            (0 out of 36)
                                                                                                                     0%                       1%
                        Advertisement
                                                                                                          (0 out of 281)           (3 out of 281)
                                                                                                                     0%                       0%
                        Sales Brochure
                                                                                                           (0 out of 26)            (0 out of 26)
                      Source: Office of Inspector General analysis of MA Plan Marketing Materials, 2005.




    OEI-01-05-00130          M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005                     11
Δ   C O N C L U S I O N                                           


                  Our review found that some Medicare Advantage marketing materials
                  lacked CMS-required information essential for beneficiaries to make
                  informed plan choices. Missing information concerned prescription drug
                  benefit limitations and details that convey how beneficiaries can access
                  plan information. Furthermore, some marketing materials described
                  aspects of plan coverage using unclear and technical language.

                  CMS’s continued diligence in reviewing marketing materials is
                  essential. CMS will also need to ensure consistency between its HPMS
                  system and its requirements for marketing materials. We will continue
                  to monitor marketing materials for Medicare Advantage plans and for
                  Medicare Part D plans, as well as CMS’s oversight of the review process
                  for these materials.


                  AGENCY COMMENTS
                  CMS concurred with our findings, stating that the report will help it
                  improve its marketing review process. CMS also highlighted
                  enhancements it made to the review process for Medicare Advantage
                  and Medicare Part D plan marketing materials to improve their
                  consistency. These include a consolidated review of Medicare
                  Advantage and Medicare Part D plan marketing materials by CMS
                  regional office staff, a contractor review of the consistency of marketing
                  materials, and new features in its HPMS system to assist in monitoring
                  the review process. For the full text of CMS’s comments, see
                  Appendix B.




OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   12
Δ   E N D N O T E S                                 





                             1   70 Federal Register 4588, 4591 (January 28, 2005).

                             2 The remaining 15 percent of Medicare beneficiaries are enrolled in
                             a variety of Medicare programs, such as cost-based plans,
                             demonstration projects, preferred provider organizations, private
                             fee-for-service plans, and provider-sponsored organizations. In
                             addition, the Program of All-Inclusive Care for the Elderly is a
                             capitated managed care model that is not part of the MA program.

                             3CMS. “Medicare Managed Care Manual,” Chapter 3, “Marketing,”
                             p. 61.

                             4   42 C.F.R. § 422.80.

                             5   42 C.F.R. § 422.80(c)(1).

                             6   42 C.F.R. § 422.80(e)(1).

                             7CMS. “Medicare Managed Care Manual,” Chapter 3, “Marketing,”
                             p. 3.

                             8CMS. “Medicare Part D Plan Marketing Guidelines,” August 15,
                             2005.

                             9CMS. “Medicare Managed Care Manual,” Chapter 3, “Marketing,”
                             pp. 47-48.

                             10Department of Health and Human Services, OIG, Office of
                             Evaluation and Inspections (OEI), Final Reports, “Medicare
                             Managed Care: Goals of National Marketing Guide,” OEI-03-98
                             00270; and “Medicare Managed Care: 1998 Marketing Materials,”
                             OEI-03-98-00271, February 2000.

                             11 The MA organization carries the actual contract with CMS; in
                             CMS’s system this is referred to as the “H#,” which is analogous to
                             a provider number for a hospital. Within that H#, an MA
                             organization may offer plans for different geographic areas
                             (typically counties), different benefit packages, or different
                             premium arrangements.




OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   13
                             12CMS. “Medicare Managed Care Manual,” Chapter 3, 

                             “Marketing,” pp. 22, 32, and 47-48. 


                             13   Ibid., pp. 47-48. 


                             14   Ibid., pp. 16-17, 20, 38, and 45. 


                             15   Ibid., pp. 16-17, 20, and 38. 


                             16   Ibid., p. 62. 


                             17   Ibid., pp. 16 and 61. 


                             18   Ibid., pp. 17, 21, 34, and 38. 


                             19   Ibid., p. 16. 


                             20   Ibid., p. 63. 


                             21Ibid., p. 63. CMS requires plans to include the following 

                             definition for a benefit period: 


                                     A benefit period begins the day you go to the hospital or
                                     skilled nursing facility. The benefit period ends when you
                                     have not received hospital or skilled nursing facility care for
                                     60 days in a row. If you go into the hospital after one
                                     benefit period has ended, a new benefit period begins. You
                                     must pay the inpatient hospital deductible for each benefit
                                     period. There is no limit to the number of benefit periods
                                     you can have.

                             22   Ibid., p. 23. 


                             23Medicare Health Plan Tracker; Medicare Advantage Fact Sheet. 

                             Henry J. Kaiser Family Foundation. September 2005, available 

                             online at www.kff.org. 


                             24   CMS. “Medicare Managed Care Manual,” Chapter 3, p. 3. 





OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   14
Δ   A P P E N D I X                               A            



                  METHODOLOGY
                  We obtained marketing materials from a random sample of 36 MA plans
                  that CMS classifies as health maintenance organizations (HMOs) and
                  HMO point of service (HMOPOS) plans.1 We selected these
                  organizations in an unbiased random sample that is representative of
                  organizations that vary by their number of plans and of plans that vary
                  by enrollment size. While our sample was randomly drawn, it was not
                  large enough to produce reliable estimates of the population of plans.
                  Selection of MA plans. The MA plans we examined were from MA
                  organizations that met two criteria. First, the MA organizations must
                  have been in operation prior to January 1, 2004. We used that date to
                  ensure that the MA organization had at least 1 year of operational
                  experience prior to the timeframe for which we requested materials.
                  Second, the MA organization must have enrolled new members in
                  December 2004. This criterion ensured that the plan continued to be an
                  active contractor in the MA program at the time we sampled.

                  From these criteria, we obtained a population of 132 MA organizations
                  from CMS’s Health Plan Management System. After consulting with
                  other branches of OIG, we reduced the number under consideration to
                  130 MA organizations.

                  Each MA organization may offer more than one plan.2 Our starting
                  population of 130 MA organizations included 659 plans. Some
                  organizations have 20 or more plans, while others have only one. We
                  selected only one plan from each organization because organizations
                  may use similar marketing materials for all their MA plans.

                  Due to sample size limitations, the variability in the number of plans
                  offered by MA organizations, the variability in the enrollment size
                  among plans within MA organizations, and our desire to have a sample
                  that was representative of the population, we used the following
                  sampling strategy. First, we eliminated from our population 146 plans



                      1 The HMOPOS plans are point-of-service plans. HMOs make up about 94 percent of
                  enrollees and plans, and the eight HMOPOS plans make up the remaining 6 percent of
                  each.
                      2 The MA organization carries the actual contract with CMS; in CMS’s system this is
                  referred to as the “H#,” which is analogous to a provider number for a hospital. Within that
                  H#, an MA organization may offer plans for different geographic areas (typically counties),
                  different benefit packages, or different premium arrangements.


OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   15
A   P   P E N D       I X            A


                      that enrolled fewer than 100 beneficiaries. This left a population of
                      513 plans in the 130 MA organizations.

                      We grouped the 130 MA organizations into 8 strata by first forming
                      4 primary groups based on the number of plans that the MA
                      organizations offer. We then subdivided each primary group into two
                      subgroups based on enrollment size within the organizations.

                      In the first stage of sampling, we randomly selected MA organizations
                      within each stratum. In the second stage of sampling, we randomly
                      selected one plan from each MA organization selected in the first stage
                      of sampling, yielding individual plans with a relatively high enrollment
                      and plans with a relatively low enrollment.
                      Marketing materials reviewed. We contacted the selected MA
                      organizations and asked them to send us the following materials issued
                      for the selected plan for the 2005 marketing period, through
                      March 1, 2005:

                             •       Advertising materials
                                 o       Print advertisements published in newspapers

                                 o       Direct mail advertisements

                                 o       Scripts for radio and television advertisements

                             •       Enrollment materials

                                 o       Sales brochures/kits

                                 o       Enrollment forms/applications

                                 o       Summary of benefits

                                 o       Evidence of coverage

                      We received materials from all 36 plans, for a total of 415 pieces. For
                      each plan, we received one enrollment form, one summary of benefits,
                      and one evidence of coverage document. We also received a total of
                      281 advertisements and 26 sales brochures from the 36 plans.
                      Review guides. We developed and used five review guides, one for each
                      type of material. Multiple guides were necessary because requirements
                      governing what must appear in the different types of materials vary.

                      We based these review guides on requirements specified in CMS’s
                      Medicare Managed Care Manual, Chapter 3, “Marketing.”




    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   16
A   P   P E N D       I X            A


                      In addition to determining whether the marketing materials met CMS’s
                      requirements, we included two additional questions on each review
                      instrument to assess whether the material was reader-friendly:

                             • 	 Is this piece clear or confusing?

                             • 	 Does this piece contain technical language or jargon?

                      For our purposes we defined a clear piece as one in which the meaning
                      of all the text is obvious and not misleading. We define jargon as:

                             • 	 Technical language (i.e., words, terms, phrases, and acronyms
                                 specific to a certain field) and

                             • 	 Sentences with strings of big words, overblown phrases,
                                 “-izing” words (e.g., finalizing, utilizing), invented words (e.g.,
                                 signage), legalese, or bureaucratic language.

                      We recognize that determining whether marketing materials are
                      reader-friendly is a subjective process. These criteria provided a way of
                      looking at the materials systematically.
                      CMS Regional Office Interviews

                      To learn more about the marketing material review process, we
                      interviewed staff from four CMS regional offices that are responsible for
                      overseeing large numbers of MA plans: Atlanta, Chicago, San
                      Francisco, and Seattle. Our interviews focused on the offices’ reviews of
                      marketing materials and barriers to the review process.




    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   17
A   P   P E N D       I X            ~           A
Δ       A P P E N D I X                               B

              Agency comments




    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005
   18

A   P   P E N D       I X            B           





    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005
   19

A   P   P E N D       I X            B           





    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005
   20

A   P   P E N D       I X            B           





    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005
   21

A   P   P E N D       I X            ~           A
Δ       A C K N O W L E D G M E N T S                                                                    



                      This report was prepared under the direction of Joyce M. Greenleaf,
                      Regional Inspector General for Evaluation and Inspections in the
                      Boston regional office, and Russell W. Hereford, Deputy Regional
                      Inspector General. Other principal Office of Evaluation and Inspections
                      staff who contributed include:

                      Maria E. Maddaloni, Team Leader
                      Rosemary Borck, Program Analyst

                      Benjamin T. Mahdi, Intern

                      Linda B. Abbott, Program Specialist

                      Barbara Tedesco, Mathematical Statistician

                      Kevin Farber, Mathematical Statistician




    OEI-01-05-00130   M E D I C A R E A D VA N TA G E M A R K E T I N G M AT E R I A L S   FOR   CALENDAR YEAR 2005   22
